Audit Report



Return to the USDOJ/OIG Home Page




Office of Community Oriented Policing
Services Grants Administered by the Columbia River Inter-Tribal Fish Commission and
Columbia River Inter-Tribal Fisheries Enforcement

Report No. GR-90-04-014


August 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of four grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the Columbia River Inter-Tribal Fisheries Commission, Columbia River Inter-Tribal Fisheries Enforcement (Enforcement).  Between June 2000 and March 2004, the Enforcement was awarded four grants totaling $1,107,485 to provide training and to purchase equipment, technology and vehicles for new and existing officers.  The purpose of the grants is to enhance community policing.  

Generally, COPS grant audits include testing for compliance with six essential grant conditions including budgeting for local officer positions, hiring of additional officers, local match requirements, reimbursement requests, retention of officer positions, and community policing.  However, because the Enforcement had received only Tribal Resources Grant Program (TRGP) grants that provide for training, equipment, technology and vehicles, we reviewed only two of the six grant conditions, local match requirements and reimbursement requests.  We found the Enforcement to be in compliance with COPS' grant requirements.